<html>
<title> - NOMINATION OF UTTAM DHILLON</title>
<body><pre>[Senate Hearing 109-542]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-542
 
                      NOMINATION OF UTTAM DHILLON

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                 ON THE

NOMINATION OF UTTAM DHILLON, TO BE DIRECTOR, OFFICE OF COUNTERNARCOTICS 
           ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY


                               __________

                             MARCH 31, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
27-757                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Jennifer A. Hemingway, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
         Adam R. Sedgewick, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Akaka................................................     2
    Senator Coburn...............................................     4

                                WITNESS
                         Friday, March 31, 2006

Uttam Dhillon, to be Director, Office of Counternarcotics 
  Enforcement, U.S. Department of Homeland Security:
    Testimony....................................................     5
    Prepared statement...........................................    17
    Biographical and professional information....................    19
    Letter from U.S. Office of Government Ethics.................    26
    Responses to pre-hearing questions...........................    27
    Responses to post-hearing questions..........................    50

                                APPENDIX

Copy of a section of Public Law 107-296 submitted by Senator 
  Coburn.........................................................    53


                      NOMINATION OF UTTAM DHILLON

                              ----------                              


                         Friday, March 31, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Coburn, and Akaka.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today, the Committee will consider the nomination of Uttam 
Dhillon to be the first Director of the Office of 
Counternarcotics Enforcement at the Department of Homeland 
Security.
    This office, established by the Homeland Security Act of 
2002 and strengthened by the Intelligence Reform and Terrorism 
Prevention Act of 2004, is a key component in our efforts to 
prevent drug trafficking into the United States.
    The Office of Counternarcotics Enforcement is charged with 
coordinating policy and operations within the Department of 
Homeland Security and among other Federal, State, and local 
agencies engaged in stopping the flow of illegal drugs into the 
United States.
    From the personnel guarding our borders to the Coast Guard 
ships at sea, it must ensure that the resources dedicated to 
this effort are adequate and properly deployed. And it must 
work effectively with governments of other nations that have 
joined us in this vital effort.
    The damage that illegal drugs inflict upon American 
families justifies this concerted national effort. Add to that 
the mounting evidence of direct links between drug trafficking 
and terrorism financing and the effort takes on an even greater 
urgency.
    This link was recently brought into sharp focus by the 
indictments of key leaders of the Revolutionary Armed Forces of 
Colombia, or FARC. This was the largest narcotics trafficking 
indictment in U.S. history, charging FARC leaders with 
importing more than $25 billion worth of cocaine into our 
country. Not only does FARC control some 60 percent of the 
cocaine smuggled into the United States, but it is also 
designated as a terrorist organization with documented ties to 
another terrorist organization, Hezbollah. Against this power, 
financial resources, and ruthlessness, we must mount the 
strongest possible response.
    Our enhanced counternarcotics efforts are producing 
results. The interdiction of U.S.-bound cocaine has increased 
substantially from 200 metric tons in 2001 to 285 metric tons 
in 2004. Last year, U.S. Customs and Border Patrol officials 
seized or destroyed a record-breaking $1.7 billion worth of 
illegal drugs.
    But traffickers are relentless in seeking to defeat our 
efforts, and the nexus between illegal drugs and terrorism 
remains.
    Mr. Dhillon currently serves as Associate Deputy Attorney 
General for the Department of Justice. Previously he served as 
the Majority Chief Counsel and Deputy Staff Director for the 
House counterpart for this Committee, the House Select 
Committee on Homeland Security, and as Senior Investigative 
Counsel for the House Government Reform Committee, our other 
House counterpart.
    Earlier in his career, he served as an Assistant U.S. 
Attorney for the Central District of California. This 
extraordinary experience appears to make him very well 
qualified for the Director's position.
    As Director, he would serve as Secretary Chertoff's chief 
advisor on all counternarcotics issues. This position also 
carries with it important responsibilities to coordinate 
counternarcotics efforts across agencies at all levels of 
government. As this Committee has learned during its 
investigation into Hurricane Katrina, that is an area where the 
Department needs to improve greatly. I look forward to Mr. 
Dhillon's views on the policies and practices that are needed 
to build an ever more unified and cooperative counternarcotics 
structure.
    Combating the scourge of illegal drugs is one of the 
greatest challenges facing our Nation in an era of terrorism. 
Now that we understand better the link between the proceeds of 
drug trafficking and terrorism financing, the cause is more 
urgent than ever before. I commend Mr. Dhillon for his 
willingness to take on this important challenge.
    Mr. Dhillon has filed responses to biographical and 
financial questionnaires, answered prehearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record with 
the exception of the financial data, which are on file and 
available for public inspection in the Committee's offices.
    I am now very proud and pleased today to welcome my friend 
and colleague, the Senator from Hawaii, Senator Akaka, who is 
serving as the Ranking Member today.
    Senator Akaka, I would invite you to give any opening 
remarks.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman.
    I want to tell you and tell all of those here that it is a 
pleasure to work with our Chairman. She has been doing a 
tremendous job for our country as Chairman of this Committee.
    Mr. Dhillon, is that the right pronunciation?
    Mr. Dhillon. Dhillon, yes.
    Senator Akaka. I, too, want to welcome you and your family 
to this Committee and thank you for your willingness to serve 
our country.
    You have been nominated to a new position where, as 
Director of the Office of Counternarcotics Enforcement, you 
will be the Secretary's chief adviser on all counternarcotics 
related issues. When I see the word counter, I wish that were 
to happen immediately, but it is something that we have been 
working on for years.
    You will head a small office with a limited budget. 
Nonetheless, you will be expected to not only advise the 
Secretary but also coordinate counternarcotics policies and 
operations within DHS and with Federal, State, and local 
agencies. And it is going to be tough. You are going to 
recommend appropriate financial and personnel resources, track 
and sever the connections between illegal drug trafficking and 
terrorism, and represent DHS on all task forces and committees.
    You will need to be forceful and effective. Drug 
traffickers quickly adapt to changing circumstances. And let me 
mention that, when I was in the House, I was with such a 
committee. At that time and that year, which was in the 1980s, 
we traveled to what was called the Golden Triangle and the 
Golden Crescent. We talked to nations there. We talked to 
nations in those areas to try to convince farmers to plant 
crops that would benefit people. And even to the point of 
trying to fund some of those programs.
    When I say changing circumstances, what happened after we 
convinced farmers that they should switch crops, the people who 
were buying the poppies from the farmers raised the price. So 
over the years we lost out on that.
    And so I know it is difficult and the circumstances are 
changing.
    Likewise, Federal law enforcement entities must demonstrate 
the same responsiveness and agility as they face these 
challenges. Disrupting the illegal flow of narcotics into the 
United States must be a top priority for the Department of 
Homeland Security. Drug traffickers flout our Nation's laws and 
do much to contribute to instability and violence at our 
borders. The organized criminal organizations that flood the 
United States with illegal drugs siphon billions of dollars 
from our economy and wreck the lives of many of our citizens.
    The social and economic problems caused by narcotics 
trafficking are a matter of great concern for the people of my 
State. More than two decades ago, we saw the first widespread 
use of methamphetamine in Hawaii. Initially, the drug was 
brought into our State by organized criminal groups from Asia. 
Law enforcement had some significant successes in disrupting 
their activities in Hawaii. Unfortunately, Asian suppliers have 
largely been supplanted by organized criminal organizations 
from Mexico and meth abuse has exploded again in Hawaii in 
recent years and across our country, as well.
    Hawaii has the highest meth usage rate in the Nation. This 
drug abuse saps the productivity and energies of some of our 
brightest and most promising young people, robbing them of the 
experiences of youth and leaving them disadvantaged for the 
future. And we are confronted with ever more alarming 
statistics. Meth is a factor in 80 percent of the arrests for 
violent crimes and domestic abuse in Hawaii.
    Hospitals report that up to 20,000--and this was difficult 
for me to believe--but 20,000 babies are born each year to 
mothers addicted to meth, and the drug is present in 90 percent 
of the homes where children are removed by Protective Services 
because of abuse or neglect.
    As disturbing as these statistics are, they still do not 
show how truly destructive this drug is on the lives of too 
many of our citizens. I am also reminded of an additional 
troubling statistic. Law enforcement authorities tell us that 
90 percent of the meth seized in Hawaii is transported into our 
State through couriers on commercial flights, commercial 
flights that originate on the West Coast or through package 
delivery services.
    It is incredible to consider that organized criminal 
organizations operating out of Mexico control narcotics 
trafficking more than 3,000 miles away in Hawaii. We know where 
the narcotics are coming from. We know precisely where they are 
going. And we know how the drugs are being transported.
    Yet we have been unable to make a serious impact on this 
illicit trade.
    However, I am hopeful that we will see some improvement in 
our ability to respond to this problem. The Department of 
Homeland Security employs many of the men and women who are on 
the front line against narcotics traffickers. Therefore, I am 
interested in knowing your vision for developing policies for 
combating the distribution of narcotics, both at our borders 
and as illegal drugs are trafficked within our Nation.
    I look forward, Madam Chairman, to hearing from Mr. Dhillon 
on these issues and in working with you in the future.
    Thank you very much, Madam Chairman.
    Chairman Collins. Thank you, Senator. I am very pleased 
that our colleague, Senator Coburn, has also joined us this 
morning and I would call upon him for any opening remarks.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Madam Chairman. I just have a 
couple questions which I will direct during the appropriate 
time.
    I will note my significant concern with the fact that the 
Department of Homeland Security is diverting drug interdiction 
from the core role of Homeland Security. From the testimony in 
the House in February, it is evident that what we are seeing is 
something that does not follow the intent of Congress nor the 
language specific in Congress when DHS was created. And I 
intend to be very aggressive in raising that issue.
    Because if it is not one of the core missions of Homeland 
Security, and if it is not funded, and if it is not a priority 
of security--which I believe it is--then it is going to suffer.
    As Senator Akaka just outlined, the consequences of failing 
to have great drug interdiction policies are manifest among the 
most innocent in our society. And so I will be asking some 
questions of our witness and our nominee about that, but I also 
think it needs to go to a higher level because of the potential 
loss of concentration and focus on this very important and 
vital aspect of the Department of Homeland Security. Thank you.
    Chairman Collins. Thank you.
    Our Committee rules require that all witnesses at 
nominations hearings give their testimony under oath. So Mr. 
Dhillon, if you would please stand and raise your right hand I 
will administer the oath.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Dhillon. I do.
    Chairman Collins. Thank you.
    Mr. Dhillon, I understand that you do have family members 
here today, and I would invite you to introduce them to the 
Committee at this time.
    Mr. Dhillon. Thank you, Chairman Collins. I would like to 
introduce my wife, Janet.
    Chairman Collins. We welcome you to the Committee. Thank 
you. At this time, I would ask that you proceed with your 
opening statement.

   TESTIMONY OF UTTAM DHILLON,\1\ TO BE DIRECTOR, OFFICE OF 
   COUNTERNARCOTICS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Dhillon. Chairman Collins, Senator Akaka, and 
distinguished Members of the Committee. I am honored to appear 
before you today and I thank you for the opportunity to answer 
the Committee's questions.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dhillon appears in the Appendix 
on page 17.
---------------------------------------------------------------------------
    On a personal note, I would also like to thank my wife, 
Janet, who is here today and who, for more than 20 years of 
marriage, has been a constant source of encouragement and 
support.
    I am honored by the confidence that President Bush has 
shown in me by nominating me to be the first Director of the 
Office of Counternarcotics Enforcement at the Department of 
Homeland Security. And I am grateful to Secretary Chertoff for 
recommending me for this important position.
    Part of the Department of Homeland Security's primary 
mission, as set forth in the Homeland Security Act of 2002, is 
to ``monitor connections between illegal drug trafficking and 
terrorism, coordinate efforts to sever such connections, and 
otherwise contribute to efforts to interdict illegal drug 
trafficking.''
    In my view, the core responsibility of the Office of 
Counternarcotics Enforcement is to ensure that the Department 
of Homeland Security continues to successfully address this 
critical element of its primary mission. And, through the 
statutory responsibilities Congress has provided to the Office, 
I believe that the Office is fully prepared to continue to do 
so by, among other things, maintaining its practice of 
conducting thorough and comprehensive reviews of the 
Department's counternarcotics budget and activities and by 
timely reporting its findings to Congress.
    Additionally, as the primary policy adviser to the 
Secretary for all counternarcotics issues within the Department 
of Homeland Security, I will work to formulate counternarcotics 
policies that will unify the Department's counternarcotics 
efforts, fully maximize its counternarcotics resources to stop 
the flow of illegal drugs into the United States, and promptly 
address new and growing challenges, such as the increase in 
methamphetamine trafficking.
    If confirmed, I will draw upon my experience at the 
Department of Justice and as a Congressional staff member to 
ensure that the Office continues successfully to accomplish its 
core mission. For the past 2\1/2\ years, I have served as an 
associate deputy attorney general. I have had the privilege of 
advising and assisting two deputy attorneys general in 
formulating and implementing policies and programs at the 
Department of Justice.
    My current responsibilities include chairing the Attorney 
General's Anti-Gang Coordination Committee, which has provided 
me the opportunity to work with all of the Department's law 
enforcement components in developing and implementing the 
Department's anti-gang strategies.
    From 1990 to 1997, I served as an Assistant U.S. Attorney 
in Los Angeles. As an Assistant U.S. Attorney, I chose to 
prosecute major narcotics cases because I believed then, as I 
believe now, that aggressively fighting narcotics traffickers 
must be one of our Nation's highest priorities.
    As an Assistant U.S. Attorney and Organized Crime Drug 
Enforcement Task Force prosecutor, I handled cases investigated 
by the DEA, FBI, ATF, and legacy Customs and Immigration and 
Naturalization Services. The investigations and cases for which 
I was responsible largely targeted major narcotics traffickers 
and money launderers, some of whom had links to foreign 
narcotics traffickers.
    Through handling these cases, I learned firsthand about 
interdiction techniques used in undercover operations, how 
intelligence is gathered through confidential informants and 
others, and the importance of working with local law 
enforcement officers within a Federal task force.
    I also have experience as a Congressional staff member that 
I believe will serve me well if confirmed. In 2003, I served as 
Chief Counsel and Deputy Staff Director of the House Select 
Committee on Homeland Security. As the Chief Counsel, I 
provided legal advice on all matters before the Committee, and 
as the Deputy Staff Director, I was responsible for various 
administrative matters involved in running a Congressional 
committee.
    My Hill experience also includes serving as the Policy 
Director for the House Policy Committee in 2002 and as a Senior 
Investigative Counsel for the House Government Reform and 
Oversight Committee from 1997 to 1998.
    In conclusion, I believe that my background and experience 
have prepared me to take on the unique and varied 
responsibilities of the Director of the Office of 
Counternarcotics Enforcement.
    I would like to thank the Committee for taking the time to 
consider my nomination. If confirmed, I will look forward to 
working closely with Members of the Committee, the Committee 
staff, and the Congress as a whole. Thank you.
    Chairman Collins. Thank you, Mr. Dhillon.
    I am going to start my questioning with the standard three 
questions that we ask of all the nominees. First, is there 
anything that you are aware of in your background that might 
present a conflict of interest with the duties of the office to 
which you have been nominated?
    Mr. Dhillon. No.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would, in any way, prevent you from fully and 
honorably discharging the responsibilities of the office?
    Mr. Dhillon. No.
    Chairman Collins. Third, do you agree without reservation 
to respond to any reasonable summons to appear and testify 
before any duly constituted committee of Congress if you are 
confirmed?
    Mr. Dhillon. Yes.
    Chairman Collins. You passed that first round.
    We are now going to have a round of questions of 6 minutes 
each for the first round, and we will conduct additional rounds 
as necessary.
    First, let me say that last year more people died in the 
State of Maine from illegal drugs than from automobile 
accidents. That was a tragic and serious milestone for the 
State of Maine.
    What can be done to strengthen law enforcement efforts 
across all levels of government? This is a mission that 
requires cooperation and coordination at the Federal, State, 
and local level if we are going to address the epidemic of 
drugs in this country, which has spread even to a rural State 
like Maine.
    Mr. Dhillon. Chairman Collins, I think the first thing that 
needs to be done is there needs to be coordination within 
whatever agency is attacking the problem. So the first step 
that I think needs to be taken is to ensure that there is 
adequate coordination among all of the counternarcotics related 
components within the Department of Homeland Security.
    The next step, of course, is to ensure that there is 
coordination between all of the counternarcotics related--such 
as DEA--there is full coordination within the Federal 
Government.
    And then of course, the problem of attacking drugs cannot 
be done only at the Federal level. It is critical that State 
and local law enforcement also be included in that mission.
    So I believe that the primary way to attack the drug 
problem is to ensure that there is a concerted, coordinated 
effort on the part of all Federal and all local law enforcement 
in the particular area.
    Additionally, I would say that many of these problems are 
local in the sense that the local law enforcement best 
understand how to attack the problem but do not necessarily 
have the resources to do it. That is why I believe it is 
critical that there be coordination with local law enforcement.
    Chairman Collins. I think the Joint Terrorism Task Force 
has been a very useful model for getting all levels of law 
enforcement to work together. It has not been perfect, but it 
has at least ensured that there is far more sharing of 
information.
    And as I said in my opening statement, the evidence is 
becoming overwhelming of the link between the proceeds of drug 
trafficking and terrorism financing. One has only to look at 
Afghanistan or Colombia to see the funds produced from drug 
trafficking being used to support terrorist attacks.
    It seems to me we need to do more to break up that link. 
That has the advantage not only of saving a great deal of 
misery for families in our country from drug abuse problems, 
but also of disrupting financial support for terrorist groups.
    Is the Joint Terrorism Task Force working on that angle, 
the link between drug trafficking and terrorism financing?
    Mr. Dhillon. I cannot answer that question with any 
specificity. I believe that is part of their mission. I will 
say that it is within the statutory language creating the 
Office of Counternarcotics Enforcement; it is one of the duties 
of the Director to track and sever those connections using the 
JTFF construct.
    And if I am conformed as the Director, I will engage the 
National JTTF to determine what is being done to track and 
sever those connections and ensure that the Department of 
Homeland Security is actively involved in that process. And I 
believe the statutory language requires that the Office attack 
that problem in a general way, also.
    So we will work closely with the JTTFs to ensure that is 
being done.
    Chairman Collins. My next question I think refers to the 
issue that Senator Coburn raised in his opening comments, 
although I am not quite sure. I am concerned that the 2007 DHS 
budget classifies the Coast Guard's counternarcotics funding as 
non-homeland security mission funding.
    I agree with Senator Coburn that this seems contrary to our 
intent in crafting Section 888 of the Homeland Security Act, 
and I would like to hear your comments on what the implications 
of that change are.
    Mr. Dhillon. My understanding is that occurred in the Coast 
Guard budget, in one area of the Coast Guard budget. I do not 
know much more than that, except to say that, if confirmed, I 
will work with the Coast Guard, with the Department of Homeland 
Security Budget Office, and with OMB to assess first, why that 
change was made. And second, as part of the statutory 
responsibilities of the Office, to determine if in fact that 
change will have an adverse impact on the funding for 
counternarcotics efforts within the Department of Homeland 
Security and the operational activities of the counternarcotics 
related components within the Department.
    Chairman Collins. Let me say that I think it is clear it 
will have an adverse impact, and it is on top of the Coast 
Guard's budget request being some $18 million lower in the 
Administration's proposed budget for drug interdiction than the 
enacted amount last year. So that, too, is troubling.
    I am going to pursue some other issues with you in the 
second round.
    Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Mr. Dhillon, as I mentioned in my opening statement, I have 
visited Asia and some of the trafficking centers on major 
narcotic source regions of the world, such as the Golden 
Triangle and the Golden Crescent.
    Can you tell me and tell the Committee about some of your 
objectives concerning the major narcotic source regions of the 
world?
    Mr. Dhillon. I think I would like to answer that question 
by talking about the objectives I have for the Office and what 
I view as the challenges facing the Office going forward.
    I think in order to make the Office of Counternarcotics 
Enforcement, to ensure that it is doing its job, I think there 
are three short-term goals that we need to achieve. First is to 
raise the profile of the Office within the Department of 
Homeland Security and on the Hill, within Congress.
    Second, is to grow and enhance a policy, full policy 
office, within the Office of Counternarcotics Enforcement.
    And third is to establish Department-wide counternarcotics 
performance measures. The reason I am answering your question 
by talking about the goals of the Office is because I think if 
we achieve these goals we will be able to achieve the goals 
that you are asking about.
    I also think that there are some long-term goals the Office 
needs to focus on. Maintaining an adequate Maritime Patrol 
Aircraft fleet will be critical to counternarcotics 
interdiction in the areas you are talking about.
    And as I am sure you know the Department of Homeland 
Security is faced with limitations with respect to its Maritime 
Patrol Aircraft. If confirmed, I assure you that I will 
prioritize identifying and recommending options that will 
preserve MPA in the short-term, as well as focusing on long-
term ways to ensure that we have aircraft going forward.
    The second important thing I think the Department and the 
Office needs to focus on is coordinating counternarcotics 
operations within the Department. It is critical that all of 
the drug related components within the Department of Homeland 
Security coordinate their efforts and cooperate with each 
other. I think it is incumbent upon the Director of the Office 
of Counternarcotics Enforcement to work closely to make sure 
that happens. That would be the second long-term goal that I 
think would benefit counternarcotics interdiction.
    And third is improving Southwest border interdiction. 
Although that was not specifically your question, I want to 
point out that we have a 30 percent interdiction rate in the 
drug transit zone but only a 5 percent interdiction rate in the 
arrival zone. That is the Southwest border region, that 
includes the Southwest border region.
    That 5 percent interdiction rate, in my view, is too low, 
and that will be one of our other long-term goals.
    So I think if we achieve those short- and long-term goals 
that will assist us in achieving the goals that you are 
focusing on.
    Senator Akaka. Thank you very much.
    As you mentioned, those goals will be huge challenges. And 
one of them, as you mentioned to the Chairman, is one of 
coordination, and as you repeated, it is a huge challenge, not 
only between agencies but between levels of government, 
Federal, State, and local or county governments. So you have a 
huge task ahead of you.
    Mr. Dhillon, as I pointed out in my opening statement, and 
I am repeating, it is incredible to consider that organized 
criminal organizations operating out of Mexico control 
narcotics trafficking more than 3,000 miles away to Hawaii. And 
I said we know where the narcotics are coming from. We know 
precisely where they are going. And we know how the drugs are 
being transported.
    Will you commit to reporting back to this Committee about 
how we can do a better job of closing down the flow of meth to 
Hawaii?
    Mr. Dhillon. Yes, I will, Senator. I believe 
methamphetamine trafficking is an important issue. It is an 
issue of concern to me, and it will be an issue, if I am 
confirmed, that the Office of Counternarcotics will focus on.
    Senator Akaka. Mr. Dhillon, Larry Burnett, the Executive 
Director of the Hawaii High Intensity Drug Trafficking Agency 
remarked, and I am quoting him, ``The Central Valley of 
California is such a large manufacturer of methamphetamine that 
if it were a foreign country the United States would put 
economic sanctions on it.''
    Unfortunately, much of the methamphetamine produced in that 
region finds its way to Hawaii. I know that you have some 
familiarity with this area of California, both as a resident 
and from prosecuting large drug cases in the State. What role 
do you see for DHS in targeting and dismantling large-scale 
operations like those found in the Central Valley of 
California?
    Mr. Dhillon. Senator, I actually think that looking forward 
our biggest methamphetamine problem will come from foreign 
countries. I recognize that historically that part of 
California has been an area where methamphetamine is 
manufactured. But I believe that legislation enacted by local 
law enforcement and recently by Congress as part of the Patriot 
Act will probably have a significant impact on the 
methamphetamine production within this country.
    As a result what we are seeing is increased methamphetamine 
production outside of this country. And that, of course, is the 
responsibility of the Department of Homeland Security to 
interdict that methamphetamine.
    So I believe the same practices we use to attack heroine 
coming into this country and cocaine coming into this country 
will, in the future, be the main way we have to attack the 
methamphetamine problem.
    Senator Akaka. Thank you very much. My time has expired.
    I just want to also add my welcome to your wife to this 
Committee. Thank you very much.
    Chairman Collins. Thank you. Senator Coburn.
    Senator Coburn. First of all, I think meth production in 
this country is going to go way down with the new meth bill 
that we put through. It is modeled on Oklahoma, and we saw 
about a 95 percent decrease in local production. So our problem 
with methamphetamine now is south of the border coming to 
Oklahoma.
    I want to go back to the question that the Chairman 
mentioned, and that is the budget request by the Coast Guard 
and the fact that drug interdiction is now a non-homeland 
security focus. And I want to set it up by the fact that by 
2016 in this country 64 percent of everything we spend in the 
Federal Government will be mandatory spending, 17 percent at 
that time will be interest charges at today's interest rates. 
It will be higher than that if interest rates are higher. Which 
leaves 19 percent of the total budget to do everything.
    And when we take and down-prioritize drug interdiction by 
what has been done in this budget request for the Coast Guard, 
and we know budget cuts are coming--I mean there is no question 
they are going to come--what it says is we are going to put 
less emphasis on drug interdiction if it is made a non-homeland 
security priority.
    My question to you, as Director, how are you going to 
change that and again make it part of the core mission of the 
Coast Guard and make it to where it is not going to suffer a 
disproportionate increase in cuts because it is so important to 
everything else that we do?
    Mr. Dhillon. Senator, the first thing I will do is I will 
figure out why that occurred. I do not know the details of how 
this occurred in the budget. I do not know that I would agree 
that drug interdiction is now a non-homeland security function. 
In my opening statement, I pointed out that it is one of the 
primary missions of the Department of Homeland Security, as set 
forth in the Homeland Security Act of 2002.
    I recognize that there is a budget item, the Coast Guard 
budget now places it in the non-homeland function, and I 
recognize that that could create budget concerns going forward.
    My pledge to you is that I will engage the leadership of 
the Coast Guard, engage the leadership within the Office of 
Management and Budget and the budget people within the 
Department of Homeland Security to determine why this decision 
was made, how it could be made in light of the statutory 
language setting forth drug interdiction as one of the primary 
responsibilities of the Department of Homeland Security and as 
a Homeland function. I will certainly examine that and, as part 
of my statutory responsibility, report to Congress on any 
issues that are raised as a result of that, which means if 
there were any operational deficiencies that occur or budget 
deficiencies.
    Senator Coburn. Madam Chairman, I would like to submit for 
the record a portion of Public Law 107-296, Section 888 where 
the Congress, with the President's signature, set Homeland 
Security missions.\1\ One of those security missions is drug 
interdiction. And that is the law.
---------------------------------------------------------------------------
    \1\ Copy of a section of Public Law 107-296 submitted by Senator 
Coburn appears in the Appendix on page 53.
---------------------------------------------------------------------------
    And so the request from the Coast Guard actually violates 
the law. It is my hope that you will be a fighter for this 
because there is a real risk for drug interdiction if it is 
outside as a non-homeland security mission.
    And I do not think we are probably going to tolerate this 
request in this year's budget and appropriations cycle as 
submitted by the Coast Guard.
    I am very much interested in High Intensity Drug 
Trafficking areas and Byrne and JAG grants, and I would love to 
hear your comment about local coordination with Byrne and JAG 
grants. Because one of the ways we really handled 
methamphetamine and continue to handle it in Oklahoma is 
through Byrne and JAG grants.
    Properly supervised, no money wasted, I want them to be run 
right. But I would love your opinion on that because that is 
coming under increased budget pressure, as well.
    Mr. Dhillon. Senator, I am actually not that familiar with 
the Byrne and JAG grants. With respect to working with local 
law enforcement, I firmly believe that is the only way to fight 
the narcotics problem and a number of law enforcement problems 
that we attack from a Federal point of view.
    I would be happy to educate myself more on that and, if 
confirmed, discuss that in further detail with you at a later 
time.
    Senator Coburn. Thank you, Madam Chairman.
    Chairman Collins. Mr. Dhillon, according to a recent GAO 
report, the backbone of DHS's drug interdiction operations in 
the transit zone is the fleet of Maritime Patrol Aircraft 
operated by the Department of Defense, the Office of Air and 
Marine Operations within Customs and Border Protection, and 
foreign governments. Maritime patrol is also provided but at a 
lesser extent by Coast Guard aircraft.
    The GAO report highlighted the fact that both of these 
fleets are aging, and they will need to be completely 
overhauled or replaced soon.
    In your answers to the Committee's prehearing questions you 
indicated that you would ``optimize the performance of the 
Department's efforts'' in order to meet the challenges 
presented by the aging aircraft fleets.
    I must say, I am always suspicious of words like optimize 
because I do not know what that really means. So I am going to 
ask you that question again.
    There really is a problem when the Maritime Patrol Aircraft 
are so aging that many of them are grounded for repairs 
frequently. We have seen that with Coast Guard assets, as well.
    What do you mean when you say that you are going to 
``optimize the performance,'' given that the real problem is 
that we need to make a capital investment?
    Mr. Dhillon. There is a short-term and a long-term problem. 
The short-term problem is we have to keep MPA in the air safely 
for as long as we can. But as we know, planes can only fly for 
so long. We then need a long-term solution. We need to look at 
how we are going to maintain the MPA fleet going forward.
    With respect to optimizing, we are capable, as I understand 
it, of making up for MPA deficits through actionable 
intelligence, and that has occurred. JITF South, using 
intelligence they have been able to direct planes to locations 
where narcotics traffickers are, avoiding flying around to 
locate narcotics traffickers. So we are able to use 
intelligence to make up for airtime deficits.
    I will say this though, there is obviously a limit to how 
much we can do that. And so we obviously have to use our 
intelligence effectively. We have to use our fleet effectively. 
But if I am confirmed as Director, one of the first things I 
want to do is to determine what our MPA needs are, where the 
deficits are, and to immediately begin to address that problem. 
Because we cannot successfully interdict narcotics in the 
transit zone without an effective MPA fleet.
    Chairman Collins. Let us talk a little bit more about 
actionable intelligence because you are right that it helps you 
focus your resources. A November 2005 GAO report indicated that 
the Joint Interagency Task Force South in Key West has been 
able to detect less than one-third of the known and actionable 
maritime illicit drug movements. More specifically, GAO found 
that 76 percent of the known actionable maritime illicit drug 
traffic movements between 2000 and 2005 were not acted on due 
to lack of resources.
    So here we have actionable intelligence which, as you just 
pointed out, helps you focus your resources. But we have a GAO 
report with alarming statistics, saying that 76 percent of 
events could not be responded to.
    Mr. Dhillon. Obviously in our assessment, and if I am 
confirmed as Director, any assessment the Office does would 
take into account the fact that there is actionable 
intelligence that is not being acted on in determining what are 
appropriate MPA levels.
    I think one of the reasons that is happening is because DHS 
now--there are inter-agency intelligence programs that have 
enabled us to collect more intelligence over the years. And as 
a result, we now have more actionable intelligence than we did 
a few years ago.
    Nonetheless, the Department of Homeland Security and JITF 
South should be in a position to respond to as much actionable 
intelligence as possible.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you, Madam Chairman.
    Mr. Dhillon, Honolulu International Airport is the primary 
port of entry for meth transported into Hawaii. Ninety percent 
of the meth seized in the State passes through this facility. 
As you know, DHS includes agencies such as TSA, ICE and CBP 
that all operate at Honolulu International Airport.
    My question to you is how will you ensure that these DHS 
components better coordinate their activities to curtail the 
flow of illicit drugs?
    Mr. Dhillon. I would draw upon my experience at the 
Department of Justice chairing the Attorney General's Anti-Gang 
Coordination Committee. The Attorney General tasked that 
Committee with drawing together all of the anti-gang resources 
within the Department of Justice and causing them to coordinate 
with one another. And I believe that we have been successful in 
doing that.
    One of the things that we have learned is that no law 
enforcement agency within the Department of Justice was an 
anti-gang only law enforcement agency, just like no law 
enforcement agency within the Department of Homeland Security 
is a counternarcotics-only law enforcement agency.
    Nonetheless, we were able to bring all of those agencies 
together, have them segregate out their anti-gang activities, 
and we now treat that and view those anti-gang activities as a 
single kind of activity. And the agencies have actually come to 
the point where I think they view the anti-gang activities as a 
single activity.
    We have done budget crosscuts for anti-gang efforts within 
the Department so we know how much money we are spending on 
them and that sort of thing.
    I think the same thing goes for counternarcotics efforts 
within the Department of Homeland Security. We need to bring 
the counternarcotics-related components together. We need to 
get them to talk about their counternarcotics mission together 
and get them to realize that by working together they will be 
more effective in their counternarcotics mission. So I think 
that is how we bring them together.
    Frankly, on the Honolulu Airport issue, my first reaction 
to that is we may need to look at how many drug sniffing dogs 
we have working at that airport. I do not know the answer to 
that but they tend to be very effective. So that may be one of 
the solutions to that problem.
    Senator Akaka. Two things I want to mention. One of them is 
to ask you to come to Hawaii and look at that airport.
    Mr. Dhillon. I am delighted to do so, Senator.
    Senator Coburn. I am trying to decrease travel.
    Senator Akaka. And see for yourself what the problem is. 
When I say 90 percent, that is really high. And we are looking 
for a way of trying to turn this around. And your presence 
there and looking at the components that are there, too, I am 
sure will help.
    Let me just point out to you that typically in Hawaii the 
agencies talk to each other. And they do make a huge difference 
in the results of what they do. And I think you will find that 
to be true in Hawaii. So again I hope you can find time to come 
Hawaii.
    In your interview with Committee staff you noted that the 
State and local resources are critical in disrupting the 
transportation of narcotics. I do agree with you. The Hawaii 
High Intensity Drug Trafficking Agency, as an example, has been 
instrumental in bringing Federal, State, and local law 
enforcement assets together to confront drug trafficking 
organizations.
    What would your role in working with State and local law 
enforcement authorities be to enhance DHS's abilities in 
counternarcotics enforcement?
    Mr. Dhillon. With respect to working with State and locals, 
it would be to encourage them to work with the State and locals 
where appropriate.
    ICE, for example, is part, I believe, of various task 
forces that work with State and locals, and it is important 
that they continue to do so. So it would be to encourage, to 
the extent possible, the counternarcotics-related components 
within the Department of Homeland Security to work with State 
and local governments and to recognize that once again State 
and locals often have a better understanding of their problems 
and can assist us in fighting those problems.
    So that would be my general approach to that.
    Senator Akaka. Thank you very much for your responses.
    Madam Chairman, my time is almost up.
    Chairman Collins. Thank you.
    Senator Akaka, I would note that in the nearly 10 years 
that I have served on this Committee with you, never once has a 
witness turned you down when you have invited them to come to 
Hawaii.
    Senator Akaka. I hope they will listen and they will be out 
there to help our country. Thank you.
    Chairman Collins. Senator Coburn.
    Senator Coburn. I just have one other question and want 
your viewpoint. Do you see counternarcotics as complementary to 
counterterrorism or distracting from counterterrorism?
    Mr. Dhillon. I see it as complementary, and I am glad you 
asked that question, Senator, because I think one of the things 
we do is we segregate that out. And it is important to realize 
that everything we do at the border from an immigration point 
of view, counterterrorism point of view, can also be 
counternarcotics. And one of the things that I want to do is I 
want to be sure that as we are setting forth policies within 
the Department of Homeland Security on counterterrorism and on 
other issues that we are remembering that it is very easy to 
also ensure that the counternarcotics mission is being 
achieved.
    So I believe counternarcotics equals counterterrorism and 
vice versa, and that is one of the messages I want to be 
delivering to the Department of Homeland Security.
    Senator Coburn. Thank you.
    Madam Chairman, I have no additional questions.
    Chairman Collins. Thank you.
    Mr. Dhillon, I have a few additional questions, which I am 
going to submit for the record. But let me just end by asking 
you to describe for the Committee your experience as it relates 
to counternarcotics enforcement, and specifically highlight any 
on-the-ground operational experience that will assist you in 
carrying out the duties of this office.
    I think you have a great deal of experience and that we are 
fortunate to have someone with your background, and I think 
that it would be helpful to have that described for the 
Committee and for the record.
    Mr. Dhillon. I think my experience as an Assistant U.S. 
Attorney will serve me very well. I am not sure it felt like an 
on-the-ground experience at the time. The kind of cases I 
handled were cases, for example, where narcotics were being 
moved from Mexico to the United States.
    The one case that I remember the most is an undercover 
operation where undercover State and locals working in a DEA 
task force were posing as truck drivers who were bringing 
narcotics from Mexicali up through the Central Valley. And 
through cases like that I learned a lot about how intelligence 
is used to prosecute cases, but also how intelligence is used 
to continue to develop leads to other narcotics traffickers.
    So I believe that kind of experience will serve me very 
well because I, frankly, have an understanding of what it takes 
to actually put the bad guys in jail. And I also have a great 
respect for working with State and local law enforcement. Most 
of the cases I had had one or two Federal agents but almost all 
of the people who I worked with were State and local law 
enforcement, working as part of a task force.
    I think my experience as an Associate Deputy Attorney 
General will also serve me well. As I discussed earlier, the 
Attorney General's Anti-Gang Coordination Committee, we have 
been very operational. We have been very hands-on with the 
Department of Justice law enforcement components. I have 
assisted the Deputy Attorney General in crafting policies that 
affect the entire Department of Justice, policies that require 
that where there are multiple anti-gang task forces within a 
certain city or location that they be co-located to ensure 
coordination of intelligence and target deconfliction. And the 
same goes for intelligence information systems.
    So I have had the opportunity to work very closely with the 
law enforcement components within the Department and to assist 
the Deputy Attorney General in crafting policies, operational 
policies that will ensure that there is coordination and 
deconfliction and that all of the law enforcement components 
within the Department are working together on the anti-gang 
mission.
    Chairman Collins. Thank you very much. I want to thank you 
for appearing today and for your public service.
    Without objection, the record will be kept open until 11 
a.m. on Monday, April 3, for the submission of any written 
questions or statements for the record.
    I would advise you, Mr. Dhillon, that the fastest response 
possible to those questions will help the Committee move your 
nomination along. So I would encourage you to turn around those 
questions very quickly for the Committee.
    Thank you for your testimony.
    This hearing is now adjourned.
    [Whereupon, at 11 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7757.001

[GRAPHIC] [TIFF OMITTED] T7757.002

[GRAPHIC] [TIFF OMITTED] T7757.003

[GRAPHIC] [TIFF OMITTED] T7757.004

[GRAPHIC] [TIFF OMITTED] T7757.005

[GRAPHIC] [TIFF OMITTED] T7757.006

[GRAPHIC] [TIFF OMITTED] T7757.007

[GRAPHIC] [TIFF OMITTED] T7757.008

[GRAPHIC] [TIFF OMITTED] T7757.009

[GRAPHIC] [TIFF OMITTED] T7757.033

[GRAPHIC] [TIFF OMITTED] T7757.010

[GRAPHIC] [TIFF OMITTED] T7757.011

[GRAPHIC] [TIFF OMITTED] T7757.012

[GRAPHIC] [TIFF OMITTED] T7757.013

[GRAPHIC] [TIFF OMITTED] T7757.014

[GRAPHIC] [TIFF OMITTED] T7757.015

[GRAPHIC] [TIFF OMITTED] T7757.016

[GRAPHIC] [TIFF OMITTED] T7757.017

[GRAPHIC] [TIFF OMITTED] T7757.018

[GRAPHIC] [TIFF OMITTED] T7757.019

[GRAPHIC] [TIFF OMITTED] T7757.020

[GRAPHIC] [TIFF OMITTED] T7757.021

[GRAPHIC] [TIFF OMITTED] T7757.022

[GRAPHIC] [TIFF OMITTED] T7757.023

[GRAPHIC] [TIFF OMITTED] T7757.024

[GRAPHIC] [TIFF OMITTED] T7757.025

[GRAPHIC] [TIFF OMITTED] T7757.026

[GRAPHIC] [TIFF OMITTED] T7757.027

[GRAPHIC] [TIFF OMITTED] T7757.028

[GRAPHIC] [TIFF OMITTED] T7757.029

[GRAPHIC] [TIFF OMITTED] T7757.030

[GRAPHIC] [TIFF OMITTED] T7757.031

[GRAPHIC] [TIFF OMITTED] T7757.032

[GRAPHIC] [TIFF OMITTED] T7757.034

[GRAPHIC] [TIFF OMITTED] T7757.035

[GRAPHIC] [TIFF OMITTED] T7757.036

[GRAPHIC] [TIFF OMITTED] T7757.037

                                 <all>

</pre></body></html>
